                  U.S. SMALL BUSINESS ADMINISTRATION
                        OFFICE OF INSPECTOR GENERAL
                            Washington, DC 20416


                                                                        AUDIT REPORT
                                                                   ISSUE DATE:
                                                                   AUGUST 17, 2001
                                                                   REPORT NUMBER: 1-16




TO:           Jeanne M. Sclater, Acting Associate Deputy Administrator
               for Capital Access



FROM:         Robert G. Seabrooks, Assistant Inspector General for Auditing

SUBJECT:      SBA’s Follow-Up on SBLC Examinations

        Attached is a copy of the subject audit report. The report contains one finding and two
recommendations addressed to the Office of Capital Access. We provided you with a copy of
the draft report for review and comment. Your comments indicate that you generally agree with
the audit results and recommendations. Your comments are summarized in the report and
included, in their entirety, at Appendix A.

        The findings in this report are the conclusions of the Office of Inspector General’s
Auditing Division. The findings and recommendations are subject to review and corrective
action by your office in accordance with existing Agency procedures for audit follow-up and
resolution.

        Please provide your management response to the recommendations within 30 days from
the date of this report on the attached SBA Forms 1824, Recommendation and Action Sheet.
Any questions you may have regarding this report may be directed to Garry Duncan, Director,
Credit Programs Group, at 202-205-7732.


Attachment
                         SBA’S FOLLOW-UP ON SBLC EXAMINATIONS


                                AUDIT REPORT NUMBER 1-16


                                             AUGUST 17, 2001





The findings in this report are the conclusion of the OIG’s Auditing Division based on testing of SBA operations.
The finding and recommendations are subject to review, management decision, and corrective action in accordance
with existing Agency procedures for follow-up and resolution. This report may contain proprietary information
subject to the provisions of 18 USC 1905 and must not be released to the public or another agency without
permission of the Office of Inspector General



                                                      0
                                 SBA’s Follow-up on SBLC Examinations

                                                     Table of Contents
                                                                                                                           Page

SUMMARY ....................................................................................................................... 1

INTRODUCTION

          A. Background ........................................................................................................ 1


          B. Objective and Scope ......................................................................................... 3


RESULTS OF AUDIT

Finding and Recommendations

          OCA Needs to Improve Follow-up Procedures
          for the SBLC Program …........................................................................................ 3



APPENDICIES

          A- Management Response

          B- Audit Report Distribution





                                                                  1
                                      SUMMARY

        In September 1998, the Small Business Administration (SBA) implemented a
program to improve its oversight of the Small Business Lending Companies (SBLC) by
requiring annual safety and soundness examinations of the 14 SBLCs that participate in
the program. The first two annual examinations were performed in FY 1999 and FY
2000 by the Farm Credit Administration (FCA) under a contract with SBA.

       The objective of our audit was to determine whether the actions taken by SBA in
response to the 14 FY 1999 examination reports were sufficient to assure that the SBLCs
corrected problems identified in the examination reports. SBA had taken several actions
to improve its oversight of the examination process, however, additional actions are
needed to fully ensure that timely corrective actions are taken by SBLCs in response to
the FCA examinations.

       The initial safety and soundness examinations performed in FY 1999 were
intended to provide program oversight and assist SBA in establishing standards for the
SBLC program. Because this was the first time the SBLCs had been subject to the
examination process, SBA decided to delay following up on all but two of the
examination findings and recommendations until the second round of examinations were
performed during FY 2000.

       During the FY 2000 examination cycle, SBA required FCA to follow-up on the
FY 1999 examination findings and recommendations. Based on a sample review of four
SBLCs examination reports with a combined total of 30 findings and recommendations,
we determined that the SBLCs adequately addressed 11 of the findings and
recommendations. The remaining 19 were either partially addressed or not addressed at
all.

        One reason the SBLCs did not take all the actions necessary to address the FY
1999 examinations reports was because there was little guidance available to the SBLCs
as to what actions were required by SBA. Most non-SBLC lenders subject to
examination by financial institution regulators are required to have certain internal
controls in place. SBA is solely responsible for oversight of the SBLCs and had not
established internal control standards for the SBLCs. Another reason was because SBA
did not require the SBLC to provide a written plan of action in response to the FY 1999
examination reports.

         During the FY 2000 examination cycle, SBA began to issue notification letters to
each SBLC advising them of what actions were needed to address the FY 2000
examination reports. As of January 23, 2001, notification letters had been issued to 8 of
the 14 SBLCs and 6 responses had been received. The SBLCs that responded either did
not fully respond or indicated they would not comply with about 80 percent of the
findings and recommendations. SBA did not pursue additional follow-up action beyond
the initial responses from the SBLCs.




                                          2
        We recommend that the Acting Associate Deputy Administrator for Capital
Access: (1) formalize and implement follow-up procedures for the SBLC examination
process to ensure that the examination findings and recommendations are adequately
addressed by the SBLC in a timely manner: and (2) develop and promulgate internal
control standards for the SBLC program similar to those required for non-SBLC lenders
subject to financial institution regulators.

        The Office of Capital Access (OCA) generally agreed with the report findings but
disagreed with the audit report regarding the risk created by not actively pursuing
corrective actions on the SBLC examination findings. The OCA agreed to take action on
the two audit recommendations.




                                          3
                                   INTRODUCTION


Background

        The Small Business Lending Company (SBLC) program was established in 1975
to provide financial assistance to eligible small business concerns in the form of SBA
guaranteed loans as authorized under section 7(a) of the Small Business Act. Unlike other
SBA lenders that are regulated by financial institution regulators, SBLCs are non-
depository lending institutions that are licensed and regulated by the SBA. Currently,
there are 14 SBLCs that participate in the SBLC program. All of the SBLCs are
designated as preferred lenders under SBA’s Preferred Lenders Program (PLP) and, as
such, are authorized to make SBA guaranteed loans, subject only to an eligibility review
by SBA. The SBLCs originated approximately 24 percent of the $10.4 billion in 7(a)
loans approved by the SBA during FY 1999.

        The Office of Capital Access (OCA) is responsible for lender oversight, which is
carried out by the Office of Lender Oversight (OLO). In September 1998, the OCA
contracted with the Farm Credit Administration (FCA) to perform the first round of
annual safety and soundness examinations on each of the 14 SBLCs that participate in the
program. According to OCA, the purpose of the initial examinations was to establish a
baseline for future examinations in terms of capital adequacy, asset quality, management,
earnings and liquidity. Therefore, OCA did not require the SBLCs to formally respond to
the findings and recommendations contained in the FY 1999 examination reports, except
for two findings involving capital issues. During the FY 2000 examinations, OCA began
to implement a follow-up system to formally notify each SBLC what corrective actions
were needed to address the findings and recommendations contained in the examination
reports.

         On September 30, 1999, the FCA issued a comprehensive summary report for the
first round of examinations. SBA presented the U. S. Senate Committee on Small
Business with a written response to the FCA’s comprehensive summary report in June
2000. At the request of the U. S. Senate Committee on Small Business, the General
Accounting Office (GAO) initiated a review in April 2000 of the SBLC examination
process, which included an assessment of OCA’s response to the FCA’s Comprehensive
Summary Report. Accordingly, our audit was limited to actions taken by SBLCs and
SBA in response to the individual examination reports issued for each SBLC.

Objective and Scope

         The audit objective was to determine if SBA had adequate control processes to
assure that the SBLCs took sufficient actions to correct the problems identified in the
initial safety and soundness examinations performed in FY 1999.

        We assessed SBA’s follow-up process by reviewing pertinent documentation
related to the SBLC program and met with SBA and FCA officials. We also selected a
sample of four SBLCs to test SBA’s follow-up on the findings and recommendations


                                           4
from the first round of examinations performed in FY 1999. This test sample consisted
of the two largest SBLCs in terms of volume of SBA loans generated during fiscal year
1999, the SBLC with the most severe findings, and a fourth SBLC selected to provide
geographical diversification. For each SBLC, we reviewed the FY 1999 and FY 2000
examination reports, the workpapers for the FY 2000 examinations, and held discussions
with OCA and FCA officials as well as management from some of the SBLCs. We also
performed an on-site observation of one SBLC examination and participated in the exit
conference of another SBLC examination. Both of these SBLC examinations were
included in our audit sample.




                                         5
                              RESULTS OF THE AUDIT


Finding The Office of Capital Access Needs to Improve Follow-up Procedures for
the SBLC Program

        The Office of Capital Access (OCA) did not take timely follow up actions to
address the findings and recommendations contained in the FY 1999 SBLC examination
reports. The OCA considered the FY 1999 examinations to be a baseline for future
examinations and therefore, did not require the SBLC to respond to the findings and
recommendations, with the exception of two findings. The OCA also delayed follow-up
on the FY 1999 examinations until the FY 2000 examination cycle. As a result, the
SBLC program was placed at unnecessary risk because OCA did not actively pursue
corrective actions to address the examination findings and recommendations.

Follow-up on FY 1999 Examination Reports

        The initial SBLC safety and soundness examinations were performed by FCA
during FY 1999. Since this was the first time the SBLCs were subject to this type of
examination, a primary purpose was to establish a baseline for future examinations in
terms of evaluating capital adequacy, asset quality, management, earnings, and liquidity.
Therefore, with the exception of two SBLCs that were required to take immediate
corrective action due to the critical nature of two findings, OCA did not require the
SBLCs to respond in writing to the findings and recommendations contained in the FY
1999 examination reports.

        During the second round of examinations performed in FY 2000, OCA relied on
the FCA to perform follow-up procedures on the majority of the FY 1999 examination
findings and recommendations. We tested the adequacy of FCA’s follow-up procedures
by reviewing four SBLC examinations performed during FY 2000. Based on a review of
the supporting working papers, a site visit of one examination in process, and discussions
with SBLC and FCA officials, we found FCA’s follow-up procedures to be sufficient to
evaluate the adequacy of the corrective actions taken by the SBLC. We also found that
20 of the 30 findings and recommendations contained in the four examination reports we
reviewed were either fully or partially addressed by three of the SBLCs. The fourth
SBLC took no action on the findings and recommendations. Since OCA did not require
the SBLCs to respond to the FY 1999 examination reports, all but the two corrective
actions mentioned above were taken voluntarily by the SBLCs.




                                           6
       The following table shows the number and adequacy of the corrective actions
taken by the four SBLCs in response to the FY 1999 examination reports.

  SBLC         Total FY 1999 Findings             Corrective Actions taken by the SBLCs
               and Recommendations             Adequate     Needs Additional Non Responsive
                                                                 Actions
   #1                     7                       0                 0                 7
   #2                     7                       3                 4                 0
   #3                     9                       5                 1                 3
   #4                     7                       3                 4                 0
 TOTAL                    30                     11                 9                10

       The 11 findings and recommendations that were adequately addressed by the
SBLCs involved deficiencies such as the need for additional capital, improvements in
lending policies and procedures, and improvements to information systems. The
remaining 19 findings and recommendations that were partially addressed or not
addressed at all involved recommendations to implement or improve internal controls,
such as credit underwriting, credit review and classification and supporting analysis for
allowances for loan losses. The apparent reason most of the findings and
recommendations were not addressed fully by the SBLCs was due to the lack of guidance
from OCA as to what actions were needed to address the recommendations.

       Most SBA lenders are subject to examination by financial institution regulators
and required to have certain internal control procedures in place. These include
procedures to perform reviews to identify problem loans, classify loans according to risk,
and establish allowance accounts that reasonably reflect the potential for loan losses.
None of these internal control procedures were required for the SBLCs. The only SBA
guidance available to the SBLCs was a draft of the SBLC Examination Handbook issued
in September 1988, but OCA officials stated that the handbook did not include standards
for operating the SBLCs. According to OCA, such standards would be developed and
formalized based on the results of the initial round of examinations. As of January 23,
2001, OCA had not established a uniform set of standards for operating the SBLCs.

Follow-up on FY 2000 Examinations

        During the FY 2000 examination cycle, OCA implemented a procedure designed
to improve the SBLC examination follow-up process. The OCA began to formally notify
each of the 14 SBLCs as to what actions were needed to address the FY 2000
examination findings and recommendations. As of January 23, 2001, only eight
notification letters had been issued and six responses received. The notification letters
sent to the six SBLCs that responded contained a total of 29 findings and
recommendations, but OCA required written responses to only 20 of the 29 findings.
Furthermore, the SBLCs either did not respond or indicated that they did not plan to
comply with the corrective action sought by OCA for 8 of the 20 findings and
recommendations. For a ninth finding, the SBLC agreed to take action on a questionable



                                           7
underwriting practice, but did not provide OCA with the list of loans involved with the
questionable underwriting practice as requested in the notification letter. As a result,
approximately 45 percent (9/20) of the findings that required responses were unanswered
or challenged by the SBLCs. As of January 23, 2001, OCA had taken no further action to
follow-up with the SBLCs that did not fully respond to the notification letters.

        The OCA also did not follow-up on responses to 7 of the 20 findings (35 percent)
for which responses were received to ensure that the actions proposed by the SBLCs were
sufficient to correct the problems identified in the examination reports. Several SBLC
responses included policies designed to address the recommendations, but OCA did not
review the proposed policies. One SBLC indicated in its response that a newly adopted
policy was in place, but did not include a copy of the policy for OCA to review. Another
SBLC disagreed that corrective actions were necessary because it claimed that adequate
procedures were in place at the time of the examination. Without additional follow-up by
OCA, the responses alone were not sufficient to determine if the actions proposed or
taken by the SBLCs were adequate to address the findings and recommendations.

        Another action taken by OCA during FY 2000 to improve the examination
follow-up process was to modify the format of the examination report. In the initial
examination reports issued in FY 1999, most of the findings and recommendations were
not separately identified. Also, the descriptions used for similar findings frequently
varied between reports. This made it difficult to readily identify and understand the
findings and recommendations. The FY 2000 examination reports were redesigned to
include schedules in the appendices that specifically identified corrective actions taken in
response to previous examination reports and gave a summary of the current findings and
recommendations.

Future Follow-up Procedures

        During FY 1999 and FY 2000, FCA performed annual examinations on all 14
SBLCs. However, due in part to limited resources, OCA began to stagger its SBLC
examinations in FY 2001 based on the degree of risk each SBLC represent to SBA.
SBLCs that exhibited less risk were placed on an examination schedule of between 18 to
24 months and the high-risk SBLCs will be examined annually. The OCA indicated that
the determination of risk was based on factors such as an SBLC’s size (SBA loan
volume), the timing of the last examination, SBLC responses to past examination
findings, and the stability of an SBLC’s management team. As of January 23, 2001,
OCA had not developed a formal policy or established standard criteria for making these
determinations.

       Under the staggered review process, seven SBLCs will be examined in FY 2001
and the remaining seven will be reviewed within the next 18 to 24 months. As a
consequence, because of OCA’s past practice to delay follow-up until the subsequent
examinations, findings and recommendations may go unchecked for up to two years.
Such a delay, whether or not an SBLC is considered by OCA to be of low risk, is not
prudent oversight and places SBA and the SBLCs at unnecessary risk.



                                           8
Recommendations

        To improve the effectiveness of OCA’s oversight of the SBLC examination
process, we recommend that the Associate Deputy Administrator for Capital Access take
the following actions:

       1.A. Develop and implement formal procedures for the SBLC examination
       follow-up process and ensure that appropriate corrective actions are taken in a
       timely manner.

       1.B. Develop and promulgate internal control standards for the SBLC program
       similar to those required for non-SBLC lenders subject to financial institution
       regulators. These standards should address at a minimum the following areas:
              •	 identifying problem loans,
              •	 classifying loans according to risk, and
              •	 establishing allowance accounts that reasonably reflect the potential
                 for loan losses.

Management Response

         The Office of Capital Access agreed with both recommendations and plans to (1)
initiate a more systematic follow-up process on examination findings and SBLC
responses and (2) develop internal control standards for the SBLCs.

Evaluation of Management Response

      Implementation of the proposed actions should satisfy the intent of our
recommendations.




                                          9
10

11

                                                                                                                  Appendix B

                                   OFFICE OF INSPECTOR GENERAL
                                    AUDIT REPORT DISTRIBUTION

Recipient                                                                                           Number of Copies


Administrator .............................................................................................................1


Deputy Administrator ................................................................................................1


Associate Deputy Administrator for Capital Access .................................................1


Associate Administrator for Field Operations ...........................................................1


Associate Administrator for Financial Assistance.....................................................1


Associate Administrator for Lender Oversight..........................................................1


Financial Administrative Staff...................................................................................1

 Attention: Jeff Brown


General Counsel.........................................................................................................2


General Accounting Office ........................................................................................1

